FILED
DEC - 3 2020

WAIVER

iFUF^EEM°EFCT^RCTL^K

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

Benjamin K. Toscano

20-6440
Nancy Adam, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
H Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

□ I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature

.:

12/2/2020

Date:

(Type or print) Name

Amy W. Lo
□ Mr.

Firm

Digitally signed by Amy W. Lo
Date: 2020.12.02 16:30:39 -08i00'’

Amy W. Lo

® Ms.

□ Mrs.

□ Miss

California Office of Attorney General

Address

455 Golden Gate Ave., Suite 11000

City & State
Phone

San Francisco, CA

(415) 510-3482

______ _____ __ Zip
Email

94102

Amy.Lo@doj.ca.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT® OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

RECEIVE^CC: Benjamin K. Tosanco, Petitioner in Pro Se

DEC I ^ 2020

DECLARATION OF SERVICE BY U.S. MAIL
Case Name:
No.:

Toscano v. McLean, et al.

20-6440

I declare:
I am employed in the Office of the Attorney General, which is the office of a member of the
California State Bar, at which member's direction this service is made. I am 18 years of age or
older and not a party to this matter. I am familiar with the business practice at the Office of the
Attorney General for collection and processing of correspondence for mailing with the United
States Postal Service. In accordance with that practice, correspondence placed in the internal
mail collection system at the Office of the Attorney General is deposited with the United States
Postal Service with postage thereon fully prepaid that same day in the ordinary course of
business.
On December 2. 2020.1 served the attached
•

WAIVER

by placing a true copy thereof enclosed in a sealed envelope in the internal mail collection
system at the Office of the Attorney General at 455 Golden Gate Avenue, Suite 11000, San
Francisco, CA 94102-7004, addressed as follows:
Benjamin Toscano (H57647)
Pelican Bay State Prison
P.O. Box 7500
Crescent City, CA 95532
Petitioner in Pro Se
I declare under penalty of perjury under the laws of the State of California the foregoing is true
and correct and that this declaration was executed on December 2, 2020, at San Francisco,
California.
T. Oakes
Declarant
SF20I8200554

~^7)L
Sigrfarare

*

